USCA4 Appeal: 17-4679

Doc: 61

Filed: 08/11/2020

Pg: 1 of 1

FILED: August 11, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 17-4679
(2:13-cr-00091-7)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.

JAMAA I. JOHNSON
Defendant - Appellant

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Motz, Judge Keenan, and Judge
Harris.
For the Court
/s/ Patricia S. Connor, Clerk

USCA4 Appeal: 17-4679

Doc: 53

Filed: 07/14/2020

Pg:1of13

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 17-4679

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
JAMAAI. JOHNSON,
Defendant - Appellant.

Appeal from the United States District Court for the Southern District of West Virginia, at
Charleston. Thomas E. Johnston, Chief District Judge. (2:13-cr-00091-7)

Submitted: May 18, 2020

Decided: July 14, 2020

Before MOTZ, KEENAN, and HARRIS, Circuit Judges.

Affirmed by unpublished per curiam opinion.

Susan M. Robinson. THOMAS COMBS & SPANN, PLLC, Charleston, West Virginia, for
Appellant. Michael B. Stuart, United States Attorney, Kristin F. Scott, Assistant United
States Attorney, OFFICE OF THE UNITED STATES ATTORNEY, Charleston, West
Virginia, for Appellee.

Unpublished opinions are not binding precedent in this circuit.

USCA4 Appeal: 17-4679

Doc: 53

Filed: 07/14/2020

Pg:2of13

PER CURIAM:
A jury convicted Jamaa Johnson of conspiracy to commit Hobbs Act robbery,
firearms conspiracy, and witness tampering. The district court sentenced Johnson to 235
months’ imprisonment and three years of supervised release. Johnson appeals, contending
that the district court improperly instructed the jury, abused its discretion in denying his
motions for a mistrial, and committed a panoply of errors at sentencing. For the reasons
that follow, we affirm.

I.
This case arises from a conspiracy to commit a series of robberies in Virginia and
West Virginia. The Government alleged that Johnson was a member of this conspiracy
and that he participated in the robberies of Leair Lipscomb (the “Lipscomb robbery”) and
Cabell Franklin (the “Franklin robbery”).

In its Fifth Superseding Indictment, the

Government charged Johnson with two counts of Hobbs Act robbery and one count of
conspiracy to commit Hobbs Act robbery, in violation of 18 U.S.C. § 1951, two counts of
use of firearms in a crime of violence and one count of conspiracy to use firearms in a
crime of violence, in violation of 18 U.S.C. § 924(c)(1)(A), (o), one count of being a felon
in possession of a firearm, in violation of 18 U.S.C. § 922(g)(1), and one count of witness
tampering, in violation of 18 U.S.C. § 1512(b)(1).
At trial, three of Johnson’s alleged co-conspirators — Robert Barcliff, Keith Glenn,
and Brandon Davis — testified against Johnson, as did victim Cabell Franklin and
Johnson’s former girlfriend, Megan Smith. Barcliff testified that he and a group of friends
2

USCA4 Appeal: 17-4679

Doc: 53

Filed: 07/14/2020

Pg: 3 of 13

from Wytheville, Virginia, including Johnson, devised a plan to rob drug dealers. Johnson
suggested robbing Lipscomb, a drug dealer who was known to possess pills, cocaine, and
marijuana. Barcliff testified that he, Johnson, and Glenn drove to Lipscomb’s home to
commit the robbery.

Barcliff and Glenn entered the home, restrained Lipscomb at

gunpoint, and took marijuana, cash, and apparel. According to Barcliff, Johnson “drove
the car and ... helped us load the items.” Both Barcliff and Glenn testified that Barcliff
carried a firearm and showed it to Johnson in the car.
Barcliff and Davis also implicated Johnson in the Franklin robbery.

Barcliff

testified that Johnson agreed to drive the group to Franklin’s home; once there, Johnson
was to help secure Franklin by holding him at gunpoint. But the robbery did not go
according to plan. When Franklin answered the door, Davis began to wrestle him and
struck him in the head with a firearm; Barcliff also stabbed him with a knife. Johnson and
Barcliff proceeded to the basement, where they found Franklin’s father. Johnson held
Franklin’s father at gunpoint and ordered him not to move. Barcliff then rejoined Davis
upstairs and the two decided to leave the home. Shortly thereafter, according to Barcliff
and Davis, Johnson ran out of the home saying, “I shot him.” Franklin had been shot in
the left leg, although he testified that he could not identify his assailant, who was wearing
a bandana. Smith, Johnson’s girlfriend at the time of the robbery, testified that Johnson
admitted to shooting Franklin so that he could escape from the home.
At the conclusion of the evidence, the district court explained to the jury that a
“crime of violence,” for purposes of § 924(c), is a felony that “(A) has as an element the
use, attempted use, or threatened use of physical force against the person or property of
3

USCA4 Appeal: 17-4679

Doc: 53

Filed: 07/14/2020

Pg:4of13

another, or (B) that by its nature, involves a substantial risk that physical force against the
person or property of another may be used in the course of committing the offense.” The
district court also instructed the jury that Hobbs Act conspiracy constitutes a crime of
violence.
After two days of deliberations, the jury told the court that it had reached a
unanimous verdict. The jury found Johnson guilty of Hobbs Act conspiracy, firearms
conspiracy, and witness tampering.

The jury acquitted Johnson of being a felon in

possession of a firearm and two counts of Hobbs Act robbery. But with respect to the two
counts of use of a firearm in a crime of violence (in connection with the Lipscomb and
Franklin robberies), the district court determined that the jury’s verdict form was
incomplete. The Government had alleged that Johnson violated § 924(c) on two theories
first, that Johnson was liable for his co-conspirators’ use of firearms under Pinkerton v.
United States, 328 U.S. 640 (1946); second, that Johnson had himself used a firearm. The
jury had found Johnson guilty on the first theory but had failed to answer whether Johnson
was guilty on the second. l
Johnson moved for a mistrial. The district court denied the motion and directed the
jury to continue deliberating with respect to the unanswered questions. Later that day, the
jury submitted a note to the court asking whether it could change its verdict as to the
§ 924(c) counts. The district court responded that the jury could do so. Johnson again
moved for a mistrial, which the district court denied. Shortly thereafter, the jury submitted

1 The jury also failed to answer certain questions related to the counts against
Johnson’s co-defendant that are not relevant to this appeal.
4

USCA4 Appeal: 17-4679

Doc: 53

Filed: 07/14/2020

Pg:5of13

its final verdict, this time acquitting Johnson of the § 924(c) counts on both of the
Government’s theories.
Although the jury convicted Johnson of Hobbs Act conspiracy and firearms
conspiracy, the verdict form did not specify which offenses Johnson had conspired to
commit (the “object offenses”). For purposes of sentencing, the district court found that
Johnson had conspired to commit the Lipscomb and Franklin robberies.

The court

calculated an offense level of 35 and a criminal history category of IV and imposed, among
other adjustments, a seven-level enhancement for discharge of a firearm during the
Franklin robbery, U.S.S.G. § 2B3.1(b)(2)(A), and a four-level enhancement for serious
bodily injury to Franklin, § 2B3.1(b)(3)(B). The court sentenced Johnson to 235 months’
imprisonment — the bottom of the Guidelines range. The court also sentenced Johnson to
three years of supervised release and imposed a $300 special assessment.
Johnson timely appealed.

n.
Johnson first contends that the district court erred in instructing the jury that the
term “crime of violence,” for purposes of § 924(c), includes felonies that involve “a
substantial risk that physical force ... may be used in the course of committing the
offense.” JA 437 (quoting § 924(c)(3)(B) (the “residual clause”)). Johnson also contends
that the court erred in instructing the jury that Hobbs Act conspiracy constitutes a crime of
violence. Therefore, Johnson claims, his conviction for firearms conspiracy — that is,
conspiracy to violate § 924(c) — is invalid.
5

USCA4 Appeal: 17-4679

Doc: 53

Filed: 07/14/2020

Pg:6of13

Because Johnson did not object to these jury instructions, we review them for plain
error. See Fed. R. Crim. P. 52(b); United States v. Olano, 507 U.S. 725, 731 (1993). To
obtain reversal on plain error review, a defendant must show that “(1) an error was made;
(2) the error is plain; (3) the error affects substantial rights; and (4) the error seriously
affects the fairness, integrity, or public reputation of judicial proceedings.” United States
v. Ramirez-Castillo, 748 F.3d 205, 212 (4th Cir. 2014).
Johnson has met his burden to show that the district court committed an “error” that
is “plain.” An error is plain if, “at the time of appellate consideration, the settled law of
the Supreme Court or this circuit establishes that an error has occurred.” United States v.
Walker, 934 F.3d 375, 378 (4th Cir. 2019) (quotation marks omitted). In United States v.
Davis, 139 S. Ct. 2319 (2019), the Supreme Court struck down the residual clause as
unconstitutionally vague. Id. at 2336. And in United States v. Simms, 914 F.3d 229 (4th
Cir. 2019) (en banc), we held that conspiracy to commit Hobbs Act robbery does not
constitute a crime of violence. Id. at 233.
Johnson has not, however, established that this error “affects [his] substantial
rights,” Ramirez-Castillo, 748 F.3d at 212, because the jury could have based the firearms
conspiracy conviction on Hobbs Act robbery, a valid § 924(c) predicate. See United States
v. Mathis, 932 F.3d 242, 266 (4th Cir. 2019). This is fatal to Johnson’s claim, for a
defendant challenging a jury instruction on plain error review “must demonstrate that the
erroneous instruction . . . resulted in his conviction, not merely that it was impossible to
tell under which theory the jury convicted.” United States v. Hare, 820 F.3d 93, 105 (4th
Cir. 2016) (alterations omitted). Put another way, it is not enough for Johnson to show that
6

USCA4 Appeal: 17-4679

Doc: 53

Filed: 07/14/2020

Pg:7of13

his firearms conspiracy conviction could have been based on an invalid predicate, such as
Hobbs Act conspiracy. Rather, on plain error review, it is his burden to show that his
conviction was not based on a valid predicate, such as Hobbs Act robbery.
Johnson attempts to make this showing, asserting that his firearms conspiracy
conviction could not have been based on Hobbs Act robbeiy because he was acquitted of
the substantive offense of Hobbs Act robbery. This argument fails. Firearms conspiracy
“requires proof of agreement,” not “proof the substantive crime was actually committed.”
See United States v. Robinson, 627 F.3d 941, 958 (4th Cir. 2010). See generally United
States v. Mills, 995 F.2d 480, 484 (4th Cir. 1993) (noting that “the focus of a conspiracy
charge is the agreement to violate the law”). In light of Barcliff and Davis’s testimony
regarding Johnson’s agreement to participate in the Franklin robbery, the juiy could have
found that Johnson had conspired to use a firearm in connection with a Hobbs Act robbery,
despite the fact that it acquitted Johnson of the substantive offense.2

2 Johnson also argues that the jury could not have based the firearms conspiracy
conviction on Hobbs Act robbeiy because the jury acquitted him of the § 924(c) counts
associated with the Lipscomb and Franklin robberies. Johnson has waived this argument
by failing to raise it in his opening brief. See United States v. Palacios, 677 F.3d 234, 244
n.5 (4th Cir. 2012). Regardless, the argument is meritless. Firearms conspiracy requires
proof of an agreement to violate § 924(c), not proof that a substantive violation of § 924(c)
occurred.
7

USCA4 Appeal: 17-4679

Doc: 53

Filed: 07/14/2020

Pg:8of13

III.
Johnson claims that the district court erred in denying his motions for a mistrial after
the jury returned its first verdict. We review for abuse of discretion. See United States v.
Wallace, 515 F.3d 327, 330 (4th Cir. 2008).
Once it became clear that the jury had failed to answer certain questions on the
verdict form, the district court directed the jury to continue its deliberations with respect to
the unanswered questions. Johnson argues that had the jury been permitted to continue
deliberations on the indictment as a whole — as opposed to only on the unanswered
questions — it might have realized that conviction on the conspiracy counts was
inconsistent with acquittal on the Hobbs Act robbery and § 924(c) counts. In light of this
inconsistency, Johnson posits, the jury might have acquitted Johnson of the conspiracy
counts. Cf. United States v. Moore, 763 F.3d 900, 913 (7th Cir. 2014).
This argument is unavailing, for there is no inconsistency in the jury’s verdict. As
explained above, a defendant may be convicted of Hobbs Act conspiracy without having
committed the substantive offense of Hobbs Act robbery. See Simms, 914 F.3d at 233-34.
Similarly, a defendant may be convicted of firearms conspiracy even if the defendant did
not violate § 924(c). See Robinson, 627 F.3d at 958.

IV.
Next, Johnson claims that his sentence was procedurally and substantively
unreasonable. We review a defendant’s sentence “under a deferential abuse-of-discretion
standard.” United States v. Brewer, 520 F.3d 367, 372 (4th Cir. 2008). We first determine
8

USCA4 Appeal: 17-4679

Doc: 53

Filed: 07/14/2020

Pg:9of13

whether the district court committed any procedural error; we then consider whether the
sentence is substantively reasonable.

Id.

“In considering whether a sentence is

unreasonable, we will review the district court’s legal conclusions de novo and its factual
findings for clear error.” United States v. Hampton, 441 F.3d 284, 287 (4th Cir. 2006).
A.
First, Johnson contends that the district court erred in determining the base offense
level for his Hobbs Act conspiracy conviction. The base offense level for Hobbs Act
conspiracy is “[t]he base offense level from the guideline for the substantive offense”
that is, Hobbs Act robbery — “plus any adjustments from such guideline for any intended
offense conduct that can be established with reasonable certainty.” U.S.S.G. § 2X1.1(a)
(2016). Section IB 1.2(d) of the Guidelines provides that a conviction for a multi-object
conspiracy “shall be treated as if the defendant had been convicted on a separate count of
conspiracy for each offense that the defendant conspired to commit.” U.S.S.G. § lB1.2(d).
The application notes further provide that in applying § IB 1.2(d), a district court may
determine the object offenses if such offenses are not specified in the verdict or plea.
U.S.S.G. § IB 1.2(d) cmt. n.4.
Because the object offenses were not specified in the jury’s verdict, the district court
found, by proof beyond a reasonable doubt, that Johnson had conspired to commit the
Lipscomb and Franklin robberies and calculated the Guidelines range accordingly. In so
doing, Johnson asserts, the district court “gave no credit to the jury acquittals,” and
punished him as if he had been convicted on all counts, thereby violating his Sixth

9

USCA4 Appeal: 17-4679

Doc: 53

Filed: 07/14/2020

Pg: 10 of 13

Amendment right to a jury trial and Fifth Amendment right to due process. Opening Br.
at 35.
This argument elides the same key distinction discussed above: the jury acquitted
Johnson of the substantive Hobbs Act robbery, § 924(c), and § 922(g) counts, but not of
the conspiracy counts. Therefore, the district court’s finding that Johnson had conspired
to commit the Lipscomb and Franklin robberies — and its calculation of the Guidelines
range in accordance with that finding

is not inconsistent with the jury’s acquittals on

the substantive counts. See Simms, 914 F.3d at 233-34 (explaining that Hobbs Act
conspiracy does not require the commission of Hobbs Act robbery); United States v.
Jackson, 167 F.3d 1280, 1285 (9th Cir. 1999).3
B.
Johnson next argues that the district court erred in imposing sentencing
enhancements for discharge of a firearm, U.S.S.G. § 2B3.1(b)(2)(A), and serious bodily
injury, § 2B3.1(b)(3)(B), both in connection with the Franklin robbery. Johnson claims
that these enhancements are based on acquitted conduct, noting that the jury acquitted him
of the § 924(c) and § 922(g) counts. According to Johnson, when a district court bases a
sentencing enhancement on acquitted conduct, and when such an enhancement
dramatically increases the defendant’s offense level, the court must employ a clear and

3 To be sure, the offense level for a conspiracy offense is based on the associated
substantive offenses. See U.S.S.G. § 2Bl.l(d), 2X1.1(a). But that does not mean that
Johnson was punished for Hobbs Act robbery; it means only that the district court looked
to those substantive offenses in determining the proper offense level for Hobbs Act
conspiracy.
10

USCA4 Appeal: 17-4679

Doc: 53

Filed: 07/14/2020

Pg: 11 of 13

convincing evidence standard in finding the facts upon which the enhancement is based;
the district court’s application of a preponderance standard was therefore error.
Because Johnson failed to raise this argument before the district court, we review
for plain error. See Olano, 507 U.S. at 731. Even assuming that the district court based
the enhancements on acquitted conduct and that its use of a preponderance standard was
error, Johnson has not met his burden to demonstrate that this asserted error was plain. See
Walker, 934 F.3d at 378 (stating that an error is plain if, “at the time of appellate
consideration, the settled law of the Supreme Court or this circuit establishes that an error
has occurred” (quotation marks omitted)). In United States v. Watts, 519 U.S. 148 (1997),
the Supreme Court acknowledged, but did not resolve, “a divergence of opinion among the
Circuits as to whether, in extreme circumstances, relevant conduct that would dramatically
increase the sentence must be based on clear and convincing evidence.” Id. at 156-57. We
too have expressly declined to resolve this question. See United States v. Perry, 560 F.3d
246,259 (4th Cir. 2009). Consequently, we can hardly conclude that the asserted error was
plain.
C.
Johnson contends that his sentence is procedurally unreasonable because the district
court failed to explain adequately its object offenses finding. In making a factual finding
at sentencing, a district court must provide “a sufficient explanation of its rationale .. . that
would enable us to review such finding under the clearly erroneous standard.” United
States v. Wilkinson, 590 F.3d 259, 269 (4th Cir. 2010).

11

USCA4 Appeal: 17-4679

Doc: 53

Filed: 07/14/2020

Pg: 12 of 13

In a written order, the district court found that Johnson had conspired to commit the
Lipscomb and Franklin robberies, noting its familiarity “with the facts of this case,
including those related to the conspiracy charged in Count One, as evidenced by the Court’s
memorandum opinion issued on June 9, 2017.” The memorandum opinion referred to in
the court’s order recounts in detail the sufficiency of the trial evidence related to the
conspiracy to commit the Lipscomb and Franklin robberies, including evidence of
Johnson’s express agreement to participate in those particular robberies. The district
court’s explanation of its rationale is sufficiently detailed to enable our review.
D.
Finally, Johnson contends that his sentence is substantively unreasonable because it
is “highly disproportionate to that of others convicted in the scheme.” Opening Br. at 42.
A sentencing court must consider “the need to avoid unwarranted sentence disparities
among defendants with similar records who have been found guilty of similar conduct.”
18 U.S.C. § 3553(a)(6). In assessing the reasonableness of Johnson’s sentence, we are
mindful that because the sentence is within the Guidelines range, it is deemed
presumptively reasonable. See United States v. Louthian, 756 F.3d 295, 306 (4th Cir.
2014).

The district court concluded that there was no unwarranted disparity between
Johnson’s sentence and the sentences of his co-conspirators. The court noted that the
length of Johnson’s sentence was partly attributable to the imposition of the
§ 2B3.1(b)(2)(A) enhancement for discharge of a firearm. The court also cited Johnson’s
criminal history and the fact that some of Johnson’s co-conspirators had received
12

USCA4 Appeal: 17-4679

Doc: 53

Filed: 07/14/2020

Pg: 13 of 13

reductions for acceptance of responsibility. In light of these considerations, we cannot
conclude that Johnson’s sentence is substantively unreasonable.
We have considered Johnson’s remaining contentions and conclude that they are
without merit.

V.

For the foregoing reasons, the judgment of the district court is
AFFIRMED.

13

